HIV INFECTION AMONG STREET YOUTH


          DEPARTMENT      OF   HEALTH AND HUMAN SERVICES
                       PROGRAMS AND RESOURCES





 .t
   '''VJCIS.
               lJd'




OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS
                                                   SEPTEMBER 1990
HIV INFECTION AMONG STREET YOUTH

         DEPARTMENT      OF     HEALTH AND HUMAN SERVICES
                      PROGRAMS AND RESOURCES





                              RICHARD P. KUSSEROW
                               INSPECTOR GENERAL




OEI-01- 90- 00501                                   SEPTEMBER 1990

              . . . . .    . . . . . . . . . . . . . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .
                      .............................................




                                    TABLE OF CONTENTS





INTRODUCTION

GLOSSARY

RESEARCH

SERVICES

NETWORKING.
                                         INTRODUCTION


This is a companon report to the August 1990 Offce of Inspector General draft report entitled
 mY Infection Among Street Youth" (OEI- 01-90- 00500). That report found that street youth
face an enhanced risk of beoming infected with the human immunodeficiency virs, and that
the problem is compounded by researh gaps and by strctu barers at the local and Federal
levels. It recommende that the Public Health Service conduct additional research on the
causes and results of HI infection among street youth. It also recommended that the Office
of Human Development Servces, in concert with the Public Health Service, implement a plan
to curb the spread of HI among street youth in five cities with large concentrations of street
youth and high rates of HI infection.

Durg our research for that study it became clear to us that there was no single dictory      of
progrs sponsored by the Deparent of Health and Huma Services which , either diectly
or indictly,   are adessing the problem. We believe it is importt for researchers and
servce providers to be aware of the rage of activities sponsored by the Deparent. This
report provides summar descriptions of and contacts for several initiatives, grants, and other
resoures. Although the report is focused on the specific problem of my infection among
street youth , may of the resources listed were designed to addrss larger issues, such as
infection in genera or the needs of runaway, homeless, or other high- risk youth. We included
these broady tageted progrs because of their potential impact on the problem at hand.

Despite our attempt to be inclusive, this may be only a paral listig. It is based entiely on
responses to our request for information from the Deparent s operating divisions.
Furermore, it does not include individual listings of broad based progrs, such as
Medicaid or the Social Services Block Grat. Simiarly, while several ilY-related programs
whose scope extends beyond strt youth ar included, we could not list all of them. Readers
should be aware that street youth may also benefit though such programs.

The listigs are divided   into   th categories: research, services, and networking. The fIrst
section descrbes activities whose primar      purose is to answer specific questions over a finite
time period. The second section describes activities whose priar purpose is to give
fmancial support to organizations involved in the dict provision of services. The third
section describes activities designed to foster communication and coordiation between
people involved in fightig HI among street youth. Several projects, especially
demonstrtion grants, have a nearly equal emphasis on research and services. To avoid
duplication , however, no project is listed more than once.

Within the major categories of research and services, listings are classifed by subject matter:
my testing, education and other prevention , tratment of the infected, and basic service
provision and integrtion. Again , may projects adess more than one subject , but no project
is listed more than once. The section on networking is divided into external and internal afais.
The descriptions ar primary verbati transcrptions drwn from materials supplied to us by
the Deparent. In some cases, they have been edte or supplemente by OIG staf for the
puroses of completeness and coherence. The descrptions were correct as of August 1 , 1990.
                                           GLOSSARY

The following is a list of abbreviations used in this report:

ACYF                Admnistrtion for Childrn , Youth, and Famlies
ADAM                Alcohol , Drg Abuse, and Menta Health Admnistrtion
AHCPR               Agency for Health Car Policy and Research
AIS                 Acquired Immunodeficiency Syndrome
ASPE                Assistat   Secta  for Planning and Evaluation
BHCDA               Burau of Health Car Delivery and Assistace
BHP                 Burau of Health Professions
BHR                 Burau of Health Resources Development
BMCH                Burau of Maternal and Child Health and Resources Development
       (NOT: Th Bureau was split in the Sprg of 1990, fong the Bureau of Heath Resources Development   and
       the Mateal and Chd Heath Bureau.


CCDPHP              Center for Chronic Disease Prevention and Health Promotion
CDC                 Centers for Disease Control
CID                 Center for Infectious Diseases
CPS                 Center for Prvention Services
DASH                Division of Adolescent and School Health
HHS                 Deparent of Health and Human Services
                    Human Imunodeficiency VlIS

HRSA                Health Resources and Services Admnistrtion
IHS                 Indian Health Service
                    Intrvenous
MCHB                Maternal and Child Health Bureau
NAPO                National AIS Program Offce
NIA
                National Institute on Alcohol Abuse and Alcoholism
NIID                National Institute of Allergy and Infectious Diseases
NICH                National Institute of Child Health and Human Development
NIDA                National Institute on Drg Abuse
NIH                 National Institutes of Health
NIMH                National Institute of Menta Health
OASH                Office of Assistat Secreta for Health
ODPHP               Office of Disease Prevention and Health Promotion
OHDS                Office of Human Development Services
OMH                 Office of Minority Health
OSAP                Office of Substace Abuse Prvention
PHS                 Public Health Service
SSA                 Social Securty Admnistrtion
SID                 Sexually Trasmitted     Disease
                                              RESEARCH


SEROPREVALENCE, EPIDEMIOLOGY, AND AIDS CASE SURVEILLANCE

HIV Seroprevalence Surveys

Description:      These sureys ar designed to determne the rate of        HI infection among the
population at large and among varous subpopulations. One of those subpopulations is the
homeless. Curently, 3 of CDC' s 10 serosureys of the homeless focus specifcaly on
homeless youth. These sureys ar anonymous and                 blide the only information attached to
test specimens is age grup,        sex , race, and pricipal   HI risks (if known). The CDC hopes to
ad five more serosureys of the homeless next year. Ten other CDC serosureys relevant to
street youth are being conducted in juvenile detention facilties and adolescent health clinics.

Contact:       Seroepidemiology Branch, Division ofHIY/AIDS, CID, CDC, Atlanta, GA, 30333.

Heterosexual Transmission of HIV and Related Retroviruses

Description:      Nll is funding prospective studies of 2 000 people in Newark and Brooklyn.
The goal is to determne the natue of the epidemic in a population of inner- city heterosexuals
who do not use intrvenous drgs, and to determne the biological and environmental
cofactors associated with       HI infection. The diectors of these studies ar encouraged to
include people between the ages of 18 and 21, and may include emancipated minors over 16.
It is too early to know whether adolescents wil       indeed be    attracted into this research.

Contact:       Epidemiology Brach , Division of AIS, NIID, Nll , 6300 Executive Boulevard,
Rockville,          , 20895

San Francisco Men s Health Study
Description:      This study has the same genera goal as the heterosexual transmission studies
describe above. Gay           adolescents and young mae prostitutes wil     be included.


Contact:       Epidemiology Brach, Division of AIDS, NIAID ,         Nll , 6300 Executive Boulevard
Rockvile,           , 20895

National AIDS Case Surveillance
Description: All states have regulations requirng health care providers to report all AIDS
diagnoses to state or local health deparents, who pass the information along to CDC.
Because of the delay between infection and onset of symptoms, this information may be of
minimal use to those studying HIY in adolescents.

Contact:       Sureilance Brach, Division ofHIY/AIDS, CID, CDC, Atlanta , GA, 30333.
BEHAVIORAL AND EDUCATIONAL RESEARCH

AIDS Prevention for High Risk Adolescents

Description:  Conducted by the HI Center for Clinical and Behavioral Studies, the goal of
ths project is to develop and evaluate an intervention program aimed at reducing high risk sex
and drg behavior among the runaway and gay youth. The taget population includes 900
male and female adolescents between the ages of 12 and 17 who seek services at runaway
shelters or at a unique agency servng gay and lesbia youth. The study is a collaborative
effort between New York Psychiatrc Institute and four community agencies. The intervention
model imrses youth in 10 session programs to decrase unsafe behaviors. The intervention
focuses on increasing general knowledge about AIDS and transmission of HI infection;
buiidig personal knowledge, such as the adolescents ' perception of vulnerabilty to AIDS and
belief that they can change their behavior in order to protet themselves from infection;
enhances social skils that can be marshalled in situations with peers to mantan safe sex and
drg practices and that can be used to create supports which provide access to health
inormation and health care. Parcipating agencies as well as researchers from the Institute
have formed a work group to maimize the effectiveness of the intervention in each setting
and with each population.

Contact:       Offce of AIDS Progr,   NI, ADAMH , 5600 Fishers Lane, Rockvile, MD,
20857

HIV in Street Youth: Epidemiology and Prevention

Description:      This study, conducte by the Deparent of International Health at Johns
Hopkis University, wil collect informtion on the cognitive and behavioral antecedents of
HIY risks among children and adolescents living on the strets of Belo Horizonte, Brazil , and
Baltimore, MD.

Contact:       Health and Behavior Researh Branch, Division of Basic Bran and Behavioral
Sciences, Basic Prvention and Behavioral Medcine Research Branch, NIMH , ADAMH,
5600 Fishers Lane, Rockvile, MD ' 20857

Cooperative Agreementfor Multi-Site Trils           of   Behavioral Strategies to Prevent the
Further Spread of HIV Infection

Description:      NI issued a request for applications in Spring 1990, to conduct a
collaborative study to: 1) develop behaviora intervention strategies for groups of individuals
 at high risk for HIY infection that have not been reached effectively by existing prevention
 effort; 2) assess existing intervention effortsand improve the existing educational and mass
 media strategies that have shown some effectiveness; and 3) develop an overall effective
 intervention progr to promote behavior change that wil prevent the further spread of the
 HIYepidemic. Emphasis wil be placed on the development and testing of preventive
interventions in groups at high risk for HI infection , including homeless and runaway
adolescents.

Contact:       Office of AIDS Progr,     NIM, ADAMH,         5600 Fishers Lane, Rockvile, l\
20857

Public Knowledge, Atttudes, and Behavior Concerning AIDS

Description: An AIDS Extrural Research            Grt
                                                to the University of Calfornia at Davis
wi gather information thugh a  national surey and  social-psychological questionnaies.
Areas of knowledge and ignorace wil be identied and reommendations wil be made as to
effective AIS educational approaches. A longitudial analysis of trends in attitudes, beliefs
and behaviors wil be completed Target grups include adolescents, blacks and Hispanics.


Contact:       Division of Basic Brai   and Behaviora   Sciences, NIM , ADAMH , 5600 Fishers
Lane, Rockvile, l\ , 20857


National AIDS Demonstration Research Grants and AIDS Targeted Outreach
Model Contracts

Description:  These projects ar evaluating the effcacy of interventions designed to reduce
risk- tang behaviors by intravenous drg users and their sexual parners. Baseline behaviors
are determned using the AIDS Initial Assessment form. Follow-up is conducted six months
after intervention using the AIS Follow-up Assessment form While the NADR program
was initially focused on adult IV drg users, 160 youth ar now included in the data base.
Five of the 24 projects have focused some attention on youth in term of outreach, and two
have developed specific interventions for multi-problem street youth. Under the National
Data Coordnation and Evaluation Center program a contrtor collects HI antibody status
data frm the National AIDS Demonstration Researh grantees.

Contact:       Community Researh Branch , Division of Applied Research , NIDA ,   ADAMH
5600 Fishers Lae, Rockvile, MD, 20857

 WARN and Abt, Inc.

Description:  These contrctors are evaluating outrach and intervention strategies focused on
two groups of women at risk for HI, including adolescent women. The two target groups are
prostitutes and the sexual parers of intravenous drg users. Like the other AIDS Targeted
Outrach Model projects, these contrctors are collectig and analyzing pre- and
post- intervention data using the AIDS Initial Assessment and AIDS Follow-up Assessment.

Contact:Community Researh Branch , Division of Applied Research, NIDA ,           ADAMH
5600 Fishers Lane, Rockvile, MD , 20857
Evaluation of Community Intervention for Multi-problem Street Youth at Riskfor
AIDS

Description:         This contrt,                    Summer of 1990, wil support research on
                                    scheduled to sta in the
high risk youth,             and drg abuse, by: collectig information about multi-problem
                        HI/AIS,

street youth from a varety of soures; conducting ethnographic studies concerning health
riskig behaviors of multi- problem strt youth; identiying the economic and institutional
resoures which are requir to work with these youth; developing and testig methods of
reachig, counseling, and reucing risks though effort specific to those needs of
multi- problem youth; identiying characteristics of sta reuired for effcacious intervention
with these youth; and providing a centrze management and coordinatig function for the
results and fidigs of the project and the resoures, material, and data generated.

Contact: Community Research Brach , Division of Applied Research, NIA,              ADAMH
5600 Fishers Lae, Rockvile, MD, 20857

Circle

Description:   This contrctor is operatig in Washington, DC, testing the effects of an
HI/AIS       education and outreach progr for juvenile offenders and high risk youth. Over
400 adolescents wil be located and provided educational services by this contractor. The
impact of ths model is being assessed by comparng youths who parcipate in either
standad or enhanced interventions. The intervention cUIculum is designed to be interactive
and to elicit as much information as possible from the adolescents themselve$, rather than
burg     them with "facts. " A personal choice theme is followed thoughout in order to
highlight individual responsibilty for behavior. It is hoped the exercises and role plays
contaed within this education progr wil contrbute to permanent positive behavior
changes that wil prolong and enhance the life of adolescents at risk for HIY infection.

Contact:          Community Researh Branch, Division of Applied Research , NIDA ,   ADAMH
5600 Fishers Lae, Rockvile, MD , 20857

AIDS Community Outreach Demonstration Project

Description: Run by the University of Texas Health Science Center in San Antonio, this
project wil implement and evaluate an AIDS education and counseling program The target
populations are drg abusers, their mates, prostitutes, and runaways. The subjects wil be
randomly assigned to stada or intensive counseling and outcomes wil be compard.

Contact:          Community Research Branch , Division of Applied Research , NIDA , ADAMH
560            Fishers Lae, Rockvile, MD, 20857
AIDS Outreach to IV Drug Users, Sex Partners and Runaways
Description:      Ths project is being conducted by the Psychology Deparent     at California
State University at Long Beach. It     wil develop and evaluate   AIDS outrach and education
strategies. Prgram activities include counseling and referr       for runaways, and antibody
testing and distrbution of AIDS information and materials.

Contact:       Community Research Brach , Division of Applied Research ,   NIA , ADAMH
560 Fishers Lae, Rockvile, MD , 20857
HIV Community Demonstration Projects

Description:  These seven projects ar flexible, community- based research efforts for the
development, implementation , and evaluation of interventions to decrease the probabilty of
HI transmission in a community. The progrs began on a small scale in FY 1985, and
initially dited their prevention efforts to men who have sex with men. Subsequently, the
progrs have been designed to reach and change the behavior of other "hard to reach"
groups at risk of HI infection , such as men who have sex with men but do not admt to being
homosexual; IV- drg users not in treatment; women who are the sexual parers of these two
groups; prostitutes; and high-risk youth, such as runaways. These projects are curently
developing joint research protocols which include stadadize instrments for conducting
process, formative, and outcome evaluation. The projects in Chicago, Denver, Seattle, and
Dallas have research questions specific to street youth.

Contact:       CPS, CDC, Atlanta, GA , 30333.

Evaluating Effective Communication Strategies for Health Information to High
Risk Youth Outside of School

Description:      This is a two year contract with S. W. Morrs and Co., Inc. HI is among the
many health topics to be addressed. The researh is funded jointly by ODPHP, OSAP, CDC,
and the Deparents of Transporttion and Education. The fIrst step, a literatue review on
high risk youthigh risk behavior, has been completed The next component involves the
planning and completion of an extensive qualitative researh effort which wil include at least
20 focus grup sessions with youth frm the taget population. The final product wil be a set
of materials that can be effectively used to disseminate and promote the results of the research
to a wide audience of intermediares and practitioners who can then use the results as an aid or
guide in planning and developing health communications to this target audience.

Contact:       ODPHP, OASH , 330 C Street SW, Washington , DC, 20201
TREATMENT AND CARE FOR YOUTH INFECTED WITH HIV

AIDS Clinical Trils Group

Description: NI     conducts and supports intramural and extramur research aimed at
developing safe and effective therapies for HIY                     opportunistic
                                                       inection and associate
inections and cancers. There ar no trals designed    specifcaly for adolescents, but anyone
over 12 is generaly eligible for the adult trals. Adolescents under 18 are also usualy eligible
for pedatrc trals, but these are priary focused on infants and young children. As
Januar 1990,       NI supported 32 adult AIDS Cliical Trials Units (Acrs), some of which
also were sponsorig several trals for pedatrc patients. In adtion , NIAID supportd
Acrs designed specificaly for children. The 28 pedatrc centers of NICHD ar now
collaboratig with the AIDS Clinical Trials Group.

Contact:       Division of AIS, NIAID ,    NI, 603 Executive Boulevard, Rockvile, MD , 20895
Community Programs for Clinical Research on AIDS

Description:Ths initiative expands NIID' s clinical investigations by including primar care
physicians who ar not afliated with AIDS research effort cUlently supported by NIAID.
The progr places importce on increasing the patient population base for AIDS clinical
researh by including more HI- inected            black and Hispanic persons and IV   drg users, and
more women at risk of HI infection. The researh settings and methods are expected to
differ from those of trditional clinical researh. The community programs operate separately
from , but work closely with, the existing AIDS Clinical Trials Units and wil not replicate
their strctu, functions, or research. The CPCRA sites are makng specific attempts to reach
poor and minority populations, including youth. Anyone over 12 wil be able to enroll.

Contact:Community Clinical Research Section , Division of AIDS, NIAID, NIH , 6003
Executive Boulevard, Rockvile, MD , 20895

Pediatrc AIDS Health Care Service Demonstration Projects

Description:      These projects ar     to: demonstrte effective ways to prevent infection
                                      expected
especially though reuction of perinata transmission; develop community- based,
famly-centered coordiated services for infecte infants and childrn; and develop progrs
to reduce the spread of infection to vulnerable populations of young people. In addition, a
number of projects provide appropriate developmenta services to deal with neurological
deficits and developmenta disabilties found in HIY- infected childrn. Seventeen Pediatrc
projects were funded in Fiscal Year 1989. Severa of these demonstrtions include
adolescents. They ar located in Puert Rico, Georgia, Washington State, Texas, New York
California, and Louisiana.

Contact: Division of Services for Childrn with Special Car Needs, MCHB , HRSA , 5600
Fishers Lane, Rockvile, MD, 20857.
AIDS Service Demonstration Projects
Description: Although the AIS Servce Demonstrtion Projects focus on adults, some
projects have diecte this money toward adolescents. For instace, in New York City, the
funds pay for a coordnator of AIDS prevention at the Covenant House shelter. Funds also go
to the Hetrck Mar Institute, which specials in services for gay adolescents, and to the LA
Youth AIS/H Prvention Prject.

Contact:        Division of HI Servces, BHR, HRSA , 560 Fishers Lane, Rockvile, MD, 20857.

Developmental Disabilities and HIV: Training for           Services and Policies

Description:  The focus of ths project, ru by the Chidrn s Hospita University Affliated
Prject in Boston, is on the effectiveness of service delivery to infants with congenita HIY
inection, older chidrn with acquir infection , youth and young adults at risk , infected
adults with menta retadation, and primar car providers. Resource and traiing materials
will be provided on famly support issues, external aras affecting service delivery, income
and liabilty, and models of service delivery.

Contact:        Admnistrtion on Developmental   Disabilties, OHDS, 200 Independence Avenue
           , Washigton, DC, 20201

Servng HIV Infected Children, Youth             and Their Families: A Guide for Residential
Group Care Providers
Description:  Ths monogrph , developed under a consultat agrement with the Child Welfare
League of America, describes problematic policy issues for residential facilities for
adolescents, includig in-patient psychiatrc treatment centers and runaway shelters. Subjects
include liabilty, health stadads, confidentiality, and testing.

Contact:Child and Famly Support Brach , Division of Education and Service Systems
Liaison        , Nl
              , ADAMH , 5600 Fishers Lae, Rockvile, MD , 20857



 BASIC NEEDS AND SERVICE INTEGRATION

Homeless Youth Monograph

Description:       This monogrph wil describe six programs which have been identied   as
exemplifying goo practice in providig services to homeless youth who ar emotionally
trubled, substace abusing and at high risk for HI infection. The monogrph wil be
published in the Fal of 1990.
Contact:        Famy Support Brach , Division of Education and Service Systems
               Child and
Liaison, NIM, ADAMH , 5600 Fishers Lae, Rockvile, MD, 20857

Comprehensive Servce Research for Homeless Adolescents Who Have, or are at
Riskfor, Severe Emotional Disturbance
Description: Under ths new research announcement,       NI wil provide     grt
                                                                             support to
study the service nees of homeless adolescents and to demonstrate and evaluate the
effectiveness of varous approaches to organzing and providing a system of care for homeless
adolescents. HI-infected homeless youth are identied as a specific group about whom little
else is known and who ar an importt taget population for this announcement.

Contact:       Child and Famly Support Brach, Division of Education and Service Systems
Liaison        NI, ADAM, 5600 Fishers Lae, Rockvile, MD, 20857
Cooperative Agreements for Research Demonstration Projects on Alcohol and Other
Drug Abuse Treatment for Homeless Persons

Description:      The genera purose of this new research demonstration program is to contrbute
to scientic knowledge regarding effective interventions for homeless individuals with
alcohol and/or other drg problems. Hypotheses should be tested in terms of the following
priar objectives: reuction of the consumption of alcohol and/or other drgs; increase
levels of shelter and residential stabilty; and enhancement of the economic and/or
employment status of the taget population. Other objectives that may be addressed include:
improvement in the health and menta health status of the taget population; and increased
cooperation and linkages among service agencies in addressing the multiple needs of
homeless individuals with alcohol and/or other drg problems. Applications addssing the
special nees of varous homeless populations, includig adolescents and young adult males,
were encouraged. A number of applications have been received and ar now in the review
process.

 Contact:Homeless Demonstration and Evaluation Brach, Division of Clinical and
 Prvention Researh , NIAAA , ADAMH, 560 Fishers Lane, Rockvile, MD , 20857.
 Co-sponsored by NIDA.
                                           SERVICES

HIV COUNSELING AND TESTING

Counseling, Testing, Referral, and Parter Notification (CTRPN)

Description:      CfNprovides importt information which can promote safer behavior in
individuals who either ar infected with HI or engage in activities that place them at risk of
beoming inected The goals of         CfN  are: (1) to provide individuals with knowledge of
their curent HI status; (2) to refer persons who are inected to a medical provider capable of
providig follow-up car and medcal management ofHI-related         ilnesses; (3) to provide
education to help to initiate behavior change and reuce risky behavior; (4) to prevent the
spread of HI infection by providig HI infected persons with information regardig
behaviors essential to avoid the trsmission of the virs to others; (5) to provide information
testig, and counseling to identified sex and neee-sharng parers; (6) to encourage sex and
needle-sharng parers to avoid any futue behavior that might result in HI infection; (7) to
provide informtion about benefits of medical evaluation and treatment for infected
individuals with low CD4 cell counts, and (8) to identiy sex/needle-sharng parers who
need to be aware of their risk of HI infection. The extent to which stret youth are tang
advantage of available     CfN   services is unclear.

Contact:       CPS, CDC, Atlanta, GA , 30333

HIVIAIDS Prevention and Treatment Program for Community Health Centers

             Under an interagency agrment between the CDC and BHCDA in June 1989,
th
Description:

      demonstrtion sites received supplementa awards of $500, 000 per site to parcipate in a
comprehensive HI/AIDS prevention and tratment program. The thee parcipatig
Community Health Centers are located in the Bronx, Miam, and Newark. HIY testing wil be
one of the added services. The Newark CHC wil be opening a site tageting high risk youth
near a high school which wil be able to refer students for STDs, drg counseling, and other
 health problems.

 Contact: Division of Special Populations Progr Development, BHCDA, HRSA , 5600
 Fishers Lane, Rockvile, Iv, 20857
BEHAVIORAL AND EDUCATIONAL INTERVENTIONS


Drug Abuse Prevention Program/or Runaway Youth

Description: The purose of this progr is to provide improved and expanded drg abuse
prevention and reduction services to ruaway and homeless youth. In Fiscal Year 1989, 103
projects were funde.

Contact:       Famy and Youth Servces Bureau, ACYF, OHDS, 200 Independence Avenue SW,
Washigton , DC 20201

Integrated Primary Health Care 
               Drug Abuse Treatment Demonstration Program

Description:         A joint progr between BHCDA and NIA       grts money to 21 organzations
for drg treatment for those at high risk of HI infection.     Th of these organizations taget
adolescents: 1) The University of Texas Health Science Center wil establish a comprehensive
project at the Juvenile Detention Center of Bexar County; 2) the Health Division of
Multnomah County, OR has a specifc goal of tageting street youth and other subpopulations;
3) the Children s Hospita in Los Angeles works with     drgusers aged 12- 24.


Contact: Division of Special Populations Progr Development, BHCDA , HRSA, 5600
Fishers Lane, Rockvile, MD , 20857

AIDS Prevention Services by Health Providers/or Homeless, Runaway, and Non-
School Youth


Description:         This project wil   new videotape for youth and a new curculum for
                                        develop a
adult providers. The contractor is ODN Pructions in New York City. This is one of six
projects funded under the National Issues of High Prority in Pediatrc AIDS program.

Contact: Division of Services for Childrn with Special Car Needs, MCHB , HRSA , 5600
Fishers Lane, Rockvile, MD , 20857

Minority AIDS Education/Prevention Grant Program

Description:  This progr was created to demonstrate the effectiveness of education and
prevention strtegies tagetig raial and ethnic miorities which: 1) expand the rage of
community- based and national organizations involved in HI infection/AIDS education and
prevention activities, and 2) encourage innovative approaches that appropriately address the
diversity within and among minority populations. At least 16 of the 38 grts awarded
Fiscal Year 1988 or 1989 went toward youth-oriente activities, and at least 4 of these targeted
street youth specifically.

Contact:       OMH , OASH , 200 Independence Avenue SW, Washington , DC, 20201
AIDS High Risk Adolescent Prevention Program

Description: This trning progr is dited to youth services workers who come into
contact with high risk adolescents. These workers include adctions counselors; foster care
workers; juvenile probation offcers; youth and famy services counselors; street outreach
workers; reeation specialsts; and sta of runaway shelters, SID clinics, and teen pregnancy
progrs; and health personnel therapists who work with adolescents.

Contact:          Community Researh Branch , Division of Applied Research , NIDA   ADAM,
560            Fishers Lae, Rockvile, MD, 20857

Health Education/Risk Reduction (HE/RR)

Description:   The focus of HEIRR progrs is to prevent, reuce, or elimiate high risk
behaviors and enlist support for prevention activities among: (1) individuals whose behavior
may place them at incrased risk of infection; (2) infected individuals and their sex and
neede-sharng parers; (3) racial and ethnic minority populations; (4) women of childbearg
age who are at risk; (5) health-car providers; and (6) other groups whose activities or
behaviors may place them at risk of HI.           HEactivities include group counseling of
seropositive individuals and street outrach program that reach intrvenous drg users, male
and female prostitutes, runaway and homeless youth, and other high-risk persons not in
tratment or not receivig social servces. HEIR projects may be conducted in correctional
facilties, shelters for runaway and homeless youth, housing projects, community health

centers, mobile vans, and churches.

Contact:          CPS, CDC, Atlanta, GA , 30333

Minority Initiatives

Description:          Par of the HI/AIS prevention funds awarded to State and local health
deparents is used solely for special initiatives providing HI prevention services to racial or
ethnic minorities. In Fiscal Year 1989, 281 organizations whose priar focus is minority
populations were funded. Twenty-two percent of these organizations worked with youth.

 Contact:         CPS, CDC, Atlanta, GA , 30333

Direct Funding of Minority and Other Community-Based Organizations

Description:   In addition to the prevention cooperative agreements awarded to State and local
 health agencies, CDC dictly provides funds and tehnical assistace to minority and other
 community- based organizations (CBOs) in the metropolita statistical areas most heavily
 afected by HI infection and AIDS. Forty- four of the 68 CBOs funded in Fiscal Year 1989
 worked with youth. Interventions include street outrach, general education , peer education
 social service agency and drg treatment based education , condom distrbution and safe sex
 education , theater, prevention oriented follow-up and behavior reinforcement of HIY positive
persons and their famlies, and programs designed to encourage people to receive
counseling, testig, and follow-up.



Contact:       CPS, CDC, Atlanta, GA, 30333

United States Conference of Mayors HIVIAIDS Education Grants Program

Description: With the help of a cooperative agreement with CDC, the United States
Conference of Mayors has been giving fiancial and tehnical assistace to community- based
organizations since 1985. Severa of the funded projects taget youth.

Contact:       Office of the Deputy Dirctor for HI, CPS, CDC, Atlanta, GA , 30333

School Health Education Program
Description:  The Division of Adolescent and School Health (DASH), within CCDPHP, funds
al State and 16 local education agencies largely to provide prevention programs for youth
who attend school. Each funded State and local education agency also conducts activities to
assist agencies that provide HIY education for high-risk, out-of-school, and minority youth,
and for youth who have special education needs. Progr activities for out-of-school youth
var among State or local education agencies, but often include trning community agency
providers, includig staf at runaway shelters, alternative education centers, and corrctional
facilties.

 Contact:      DASH , CCDPHP, CDC, Atlanta, GA, 30333.

Note: The DASH also fund six national organizatins Jor work with out-oj-school youth.            The
Jollowing six listings describe these organizations' activities.

 Center for Population Options (CPO)

Description:          The Center for Population Options provides technical assistance and training to
 national youth-serving, youth employment, and education organizations on HI education
 policy, progr, and peer program development. Organizations which receive intensive
 technical assistace and trning include: Big BrotherslBig Sisters, YWCA, Salvation Ary,
 Girls Clubs of America, and the National Urban League. CPO also sponsors an annual
 national conference on HI and Adolescents, and prouces a varety of publications related to
 adolescent HIY education, includig a life planning curculum , a series of HI and
 adolescent fact sheets, and 
     Out oj the Shaws: Building an Agend and Strategies for
 Preventing HN Injection and AIDS Among Street and Homeless Youth.

 Contact:      DASH , CCDPHP, CDC, Atlanta, GA, 30333
National Coalition of Advocates for Students (NCAS)

Description: This national organization provides support for HI education in both schools
and non-trditional settgs for school-aged youth. NCAS has tageted education activities for
migrt farworker youth in Florida Texas, Mississippi, Nort Carolina, and Washington.
NCAS also provides HI prevention education to migrt health organizations and clinics,
and assistace in developing or identifying educational materials sensitive to ethnic minority
youth, includig materials in Spanish and Haitian Crole. NCAS is developing an
curculum for Latio migrant       youth.


Contact:       DASH , CCDPHP, CDC, Atlanta GA, 30333

National Coalition of Hispanic Health and Human Services Organizations
(COSSMHO)

Description: The objective of this cooperative agreement is to mobilze community- based
organizations to provide HI prevention education tageting out-of-school Hispanic youth.
COSSMHO has conducted workshops in New York City, EI Paso, Los Angeles, Chicago, and
San Juan to help community organizations with HI education needs, innovative strategies to
reach Hispanic youth, and resource identification.

Contact:       DASH , CCDPHP, CDC, Atlanta GA , 30333

National Commission on Correctional Health Care (NCCHC)

Description:      The National Commssion on COITectional   Health Car serves incarcerated youth
in detention and cOITectional facilties nationwide. It has  conducted an my educational needs
assessment in more than 1300 facilties serving youth, and provides my education traiing
sessions for cOITectional facilty providers serving youth. NCCHC wil also conduct a youth
knowledge, attitudes, and behavior surey.

 Contact:      DASH, CCDPHP, CDC, Atlanta, GA , 30333

National Network of Runaway and Youth Services (NNRYS)

Description:      The National Network of Runaway and Youth Services provides support for
 organizations serving the need of homeless and runaway youth. NNRYS has sureyed
 national network members to determe the availabilty of my education , and the specific
 nees of runaway and homeless programs. In response to needs identified in the surey,
 NNRYS developed an HI education curculum entitled         Safe Choices 
      for high risk
 out-of-school youth. Modules in the curculum   are designed      for   use in  street outrach
 progrs, shelters, telephone hotlines, detention centers, and group homes.
 Contact:      DASH , CCDPHP, CDC, Atlanta, GA , 30333
National Organization of Black County Officials (NOBCO)

Description: The objective of this cooperative agreement is to increase the avaiabilty of
prevention education to Black and other ethnic minority youth residing in urban and rual
communities acss the United States. NOBCO has developed and pilot-tested a model
prevention program which wil be available for national dissemination in the 1989- 90 program
year. The HI prevention progr is adptable and suitable for use in school and
out-of-school settgs. Other activities include national workshops designed to furer
educate NOBCO members and afilates about the nee for my prevention education at the
local level.



Contact:       DASH , CCDPHP, CDC, Atlanta, GA , 30333

TREATMENT AND CARE FOR YOUTH INFECTED WITH HIV

The Federa government generaly does not provide or fund health care   services diectly.
However, there are a few programs sponsored by HRSA though which mY- positive street
youth may have access to care. The BHCDA funds Community and Migrant Health Centers
and Health Car for the Homeless projects across the countr. Also, as mentioned above, the
MCHB and BHR admnister the Pediatrc AIDS Demonstration Projects and the AIDS
Service Demonstration Prjects. In addtion, some street youth may be eligible for Medicaid,
which reimburses health car providers for servces rendered.



 BASIC NEEDS AND SERVICE INTEGRATION

Runaway and Homeless Youth Program

Description: The purose of this progr is to provide fmancial assistance to establish or
strengthen community- based centers that adess the imediate needs (e. g. outreach
tempora shelter, counseling, and aftercar servces) of runaway and homeless youth and
their famies. The program goals and objectives of the Runaway and Homeless Youth Act are
to assist runaway and homeless youth centers to: 1) alleviate the problems of runaway and
homeless youth, 2) reunite youth with their famlies and encourage the resolution of
intrafamly problems though counseling and other services, 3) strengthen famly relationships
and encourge stable living conditions for youth, and 4) help youth decide upon constrctive
 courses of action.

 Contact:      Famly and Youth Services Bureau, ACYF, OHDS, 200 Independence Avenue SW
Washington , DC 20201
Transitional Living          Program for 
   Homeless Youth

Description: The purose of this progr is to provide technical and financial assistace to
organizations that wil provide comprehensive services and shelter to homeless youth ages 16
thugh 21 for up to 18 months. The goals of the progr are to promote a transition to
self-sufciency and to prevent long-term dependency on social services.


Contact:       Famly and Youth Services Bureau, ACYF, OHDS, 200 Independence Avenue SW,
Washington , DC 20201

State Networking on AIDS and Out-of-Home Adolescents

Description:  This project involved technical assistace and consultation services to seven
States and the Distrct of Columbia. The fIrst phase of the project consisted of a meeting of
State delegations (child menta health, health, social services, and an alternative provider) to
focus on the design of services for seropositive and symptomatic youth who are in the care of
the State or who ar on their own (e. g., homeless). The meeting provided technical assistace
to States to develop comprehensive plans for these high risk adolescents. Following the
meetig, consultation funds were made avaiable to four of these States to follow up on the
planing which occured at the meeting.


 Contact:       Child and   Famy Support Brach , NIMH, ADAMH , 5600 Fishers Lane,
Rockvile,             , 20857
                                   NETWORKING



EXTERNAL WORKSHOPS AND CONFERENCES

The Deparent has sponsored severa national and regional conferences focusing in whole or
in par on HI and street youth. Summar information on a selection of these conferences
follows.

Surgeon General' s Workshop on Children with HIV Infection and Their Families
Scope: National

Site: Philadlphia, PA
Date: Apri 1987

Departental sponsor: BMCH

AIDS and Adolescents: Exploring the Challenge
Scope: National
Site: New York , NY
Date: Marh 1988
Departental sponsors: NIDA , NIMH, BMCHR, NICHD

Knowledge Development Workshop: Issues in the Prevention and Treatment of
AIDS Among Adolescents With Serious Emotional        Disturbance
Scope: National
Site: Washington , DC
Date: June 1988

Deparbnental sponsor: 





Adolescents with AIDS: Consortium Buildingfor       High Risk Youth   Through Coor­
dination of Prevention , Services and Research
Scope: Regional
Sites: Washington , DC; Chicago, IL; Miam, FL; New York , NY; San Francisco, CA;
Houston , TX
Date: Thoughout 1989
Departmental sponsors: NIDA , NIMH, BMCHR, NICHD
Human Immunodeficiency Virus (HlV) in Adolescents: Settng a National Research
Agenda for the 1990'
Scope: National (primarly for   llS employees)
Site: Bethesda, MD
Date: Januar 1989
Deparbnental sponsor: 





Fifth Annual National Pediatrc AIDS       Conference and Follow-up to the  Sur­
                                                                            1987


geon General' s Workshop on Children with HlV Infection and Their Families
Scope: National
Site: Los Angeles, CA
Date: September 1989

Deparbnental sponsor: BMCH


HIV Prevention Strategies for Runaway and Homeless Youth
Scope: Bi-regional (HS Regions IX and X)
Site: San Francisco, CA
Date: October 1989

Deparbnental sponsor: PHS Regional Offces, NAPO


New England Conference on AIDS and Youth: Strategies for Prevention
Scope: Regional
Site: Boston , MA
Date: November 1989
Departmental sponsor: BHP


West Coast Scientific Symposium on Homeless and Runaway Youth
Scope: Regional
Site: San Francisco, CA
Date: Mach 1990
Departmental sponsor: BMCH


International Conference on Homeless Youth and AIDS
Scope: International
Site: San Francisco, CA
Date: June 1990

Departmental sponsors: NIM, NICi
Adolescents and HIV/AIDS
Scope: Regional
Site: Peekskill, NY
Date: June 1990

Departmental sponsor: BHP


INTERNAL COMMISSIONS AND TASK FORCES

The Presidential Commission on the Human Immunodeficiency Virus Epidemic issued its
fInal report in June 1988. It contaned approximately 600 recommendations, many of them
releva,t to strt youth. The National Commission on Acquired Immune Deficiency
Syndrome has thus far released thee short reports, one of which made a specific reference to
street youth at risk of infection.

The National AIDS Program Offce organzes        th
                                              separte bodes which meet regularly to
coordiate the Federa response to the    HI
                                      epidemic. They ar:


1. HIV Leadership Group. Its members include the Assistat Secretar for Health (Chair);
    Dirctor of NAP (Co- Chai);                      Agency Heads of AHCPR , ADAMH,
                                     Surgeon General;
    CDC, FDA, HRSA, NI, and ilS; AIDS Coordinators of AHCPR, ADAMH, CDC,
    FDA, HRSA NI, and ilS; Deputy Assistat Secretaes for Health, HealthScience and
    Envionment, Health Communications, Health Operations, Health (Disease Prevention
    and Health Promotion), Health (planning and Evaluation), Population Affais, and Health
    (Intergovernmental Affai); and additional OASH Staf from NAPO, OMH, Office of
    Health Legislation , Executive Secretaat, and Offce ()f General Counsel. Other PHS
     staf ar invited   to attend when appropriate.

2. PHS Executive Task Force on AIDS. This group has 47 members including repre­
   sentatives from NAPO, Offce of Surgeon General, ADAMH, AHCPR , ASPE, CDC,
   HRSA, ilS, NI, the Health Ca Financing Admnistrtion , the Social Securty Ad­
     ministration, and offces within OASH.

     The Executive Task Force maitans several panels focusing on specific issues, . one   of
     which is the Panel on Women, Adolescents, and Children with HIV Infection and
     AIDS. This Panel is    chai
                               by the Surgeon Genera, co-chaied by the Director of
     NAPO, and includes representatives of AHCPR , ADAMH, CDC, FDA , HRSA, ilS,
     NIH , OASH, OffIce of the Secretar (Offce of International Health), and Deparent of
     Defense.

3. PHS Federal Coordinating Committee on the HIV Epidemic. This group draws from
   outside HIS, and apar from its chai (the Director of NAPO) has no official HIS mem­
   bers. The Cabinet Deparents represented are Agrcultue, Defense, Energy, Education
   Housing and Urban Development, Justice, Labor, State, Trasporttion, and Yeterans Af­
fais. Other agencies represented include the National Securty
                                                      
         Agency, ACTION , En­
vironmenta Protection Agency, Federa Emergency Management Agency, General Ser­
vices Admistration , U. S. Informtion Agency, National Aeronautics and Space
Admnistration, Agency for International Development, Merit Systems Protection Board,
Peace Corps, Offce of Personnel Management, Office of Management and Budget, and
the President s Domestic Policy Council. When appropriate, PHS staff ar invited to at­
tend the meetigs.
